January 7, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: Trump v. Sierra Club, No. 20-685

National Office
125 Broad Street,
18th Floor
New York, NY 10004
Tel: (212) 549-2644
Fax: (212) 549-2644
aclu.org
Susan N. Herman
President
Anthony D. Romero
Executive Director
Richard Zacks
Treasurer

Dear Mr. Harris,
I represent the Sierra Club and Southern Border Communities
Coalition and am writing to request a second thirty-day extension of time in
which to file the opposition to certiorari in this case, which would extend the
due date to February 18, 2021. The opposition is currently due January 19,
2021, and was originally due December 17, 2021.
I am responsible for preparing the merits brief in a related case,
Trump v. Sierra Club, No. 20-138, due January 12, 2021, and for preparing
for the argument that has been set for February 22, 2021. My co-counsel are
also working on the merits brief in Wolf v. Innovation Law Lab, No. 191212, which is due January 13, 2021, and on preparation for oral argument
on March 1. These, along with additional commitments I have including a
Response to Summary Judgment due January 11, 2021 in ACLU v. CIA, 18cv-2784 (CJN) (D.D.C.), and the continuing challenges posed by the
COVID-19 pandemic make it difficult to complete preparation of the
opposition in time for the current January 19, 2021 deadline.
Neither the Petitioners nor the Respondent States object to this
request.
Please let me know if you require any further information. Thank
you very much for your time and assistance.
Very truly yours,
Dror Ladin
cc: Jeffrey B. Wall, Counsel for Petitioner
Joshua A. Klein, Counsel for Respondent State of California

